        Office of Inspector General
        Evaluation Report




Wastewater Management

Controlling and Abating
Combined Sewer Overflows

Report No. 2002-P-00012         August 26, 2002
Inspector General Resource Center           Eastern Audit and Evaluation Resource Center
 Conducting the Audit:                          Boston, Massachusetts Office
                                                New York, New York Office


Regions Covered:                            Regions 1, 3, and 5


Program Office Involved:                    Office of Wastewater Management


Report Contributors:                        Ira Brass, Project Manager
                                            Robert Hairston
                                            Linda Fuller
                                            Harry Silver
                                            Edward Baldinger
                                            John Coll, General Engineer




Abbreviations

CSO:          Combined Sewer Overflow

EPA:          Environmental Protection Agency

NPDES:        National Pollutant Discharge Elimination System

OIG:          Office of Inspector General




Cover Photo: An outfall in the Boston, Massachusetts area (photo by EPA OIG)
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, DC 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                         August 26, 2002


MEMORANDUM

SUBJECT:             Report Number: 2002-P- 00012
                     Controlling and Abating Combined Sewer Overflows

FROM:                Dan Engelberg /s/
                     Director for Program Evaluation, Water Programs

TO:                  G. Tracy Mehan
                     Assistant Administrator for Water


Attached is our report, Controlling and Abating Combined Sewer Overflows. This report
contains issues and recommendations that affect EPA, state, and local water programs.

This report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. The audit report represents the opinion
of the OIG and the findings contained in this report do not necessarily represent the final EPA
position. Final determinations on matters of this report will be made by EPA managers in
accordance with established EPA audit resolution procedures.

In accordance with EPA Order 2750, you as the Action Official are required to provide this
office a written response to the report within 90 days. Your response should address all
recommendations, and include milestone dates for corrective actions planned but not completed.

We have no objection to the release of this report to the public.

Should you or your staff have any questions about this report, please contact me at
(202) 566-0830 or Ira Brass at (212) 637-3057.
                    Executive Summary

          Combined Sewer Overflows (CSOs) are the total discharges into water bodies of
          untreated domestic, commercial, and industrial waste and wastewater, as well as
          storm water runoff, from a Combined Sewer System. Such a system collects and
          transports both sanitary sewage and storm water runoff in a single-pipe system to
          a wastewater treatment facility. Overflows can impair water quality and
          adversely affect the health of humans, animals, and aquatic organisms, as well as
          cause beach closings and fishing and recreational restrictions.

          The Environmental Protection Agency (EPA) issued a CSO Policy in 1994, and
          states and communities have implemented CSO programs with varying success.
          Since 1978, the number of CSO permittees has been reduced from approximately
          1,300 to 859. Some states have given the CSO program a higher priority than
          others. To evaluate this issue on a national level, we sought to determine:

          •   What barriers, if any, need to be overcome in implementing the CSO Policy?

          •   What are examples of better CSO practices?

          •   What levels of water quality or other outcomes are used to measure CSO
              Policy accomplishments? What improvements in the level of water quality
              have been achieved?

Significant Barriers Remain

          An estimated $44.7 billion is needed nationwide for CSO abatement efforts, and
          raising sufficient funding for often expensive projects is obviously a significant
          barrier for many communities. The Clean Water State Revolving Fund is a major
          funding mechanism, but even its vast resources cannot meet the demand. Another
          key barrier that we noted is finding suitable sites for needed facilities.

Many Promising Practices Noted

          A key part of our review was to identify promising practices already implemented
          by some of the CSO communities. Despite the barriers noted, states and
          communities demonstrated numerous promising practices that could be employed
          in the CSO programs of others to improve operations, reduce costs, and eliminate
          some of the aforementioned barriers. These promising practices included a
          variety of technical approaches and innovations, state grant programs,
          government cooperative efforts, public education initiatives, and neighborhood
          improvements. Numerous examples of these best practices are in Chapter 4 of
          this report. However, there is a need for a central mechanism within EPA to

                                           i                          Report No. 2002-P-00012
          disseminate this information.

Limited Data Available on Water Quality Improvements

          We found that many communities do not as yet have the data to determine the
          effect of CSO controls on water quality. Most communities were only monitoring
          the number, volume, and duration of CSO discharges, and did not have data on
          the effect CSO controls were having on the quality of receiving waters. This was
          because EPA does not require monitoring until completion of CSO projects.
          Consequently, it could not be determined until it was too late whether each CSO
          project being undertaken was a wise investment of taxpayers’ dollars.

Watershed Approach Should Be Considered

          Because of the broad variety of pollution sources affecting water bodies, a
          watershed management approach is needed to adequately address water quality.
          While CSO discharges are a significant pollution source, eliminating them will
          not always ensure that water quality standards will be met. Sanitary sewer
          overflows, storm water, pollution from upstream sources, and concentrated
          animal feeding operations can also impair water bodies. Attainment of clean
          water can only be accomplished through a concerted effort to limit all sources of
          pollutants.

Recommendations

          Our recommendations to the Assistant Administrator for Water to improve the
          CSO program include developing a system to disseminate lessons learned and
          better practices about CSOs. Also, EPA should work with CSO permitting
          authorities and communities to assure the performance of interim reviews
          regarding water quality, and take a leadership role in encouraging the use of
          watershed approaches and having states and communities work together to
          accomplish clean water.

Agency Response

          In his July 15, 2002 response to our draft report (Appendix 1), the Assistant
          Administrator for Water agreed with all but one of the findings and
          recommendations. He disagreed with our recommendation from Chapter 5 that
          EPA amend the CSO Policy to require communities to perform interim reviews of
          the water quality impacts of CSO upgrade projects. Although he agreed with our
          contention that these reviews are often beneficial, he argued that it would be more
          expedient if EPA achieved this by working with individual communities and
          permitting authorities rather than through a policy change. We have changed this
          recommendation, but will monitor EPA’s success in achieving this objective.




                                           ii                          Report No. 2002-P-00012
                                      Table of Contents


Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
                         Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
                         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
                         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               4

          2         CSO Implementation Efforts Have Varied . . . . . . . . . . . . . . . . . . . . . . . . . . .                           7

          3         Significant Barriers Remain . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          4         Many Promising Practices Used by States and
                    Communities Have Improved CSO Program . . . . . . . . . . . . . . . . . . . . . . . . 19

          5         Limited Data Available on Improvements to Water Quality . . . . . . . . . . . . 27

          6         CSO Efforts Need to Focus More on Entire Watershed . . . . . . . . . . . . . . . 31


 Exhibits
          1         Nine Minimum Controls and Long-Term Control Plans . . . . . . . . . . . . . . . 39

          2         Review Participants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41


 Appendices
          1         Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

          2         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51




                                                                   iii                                       Report No. 2002-P-00012
                                Chapter 1
                                Introduction

Purpose
          The cost to make improvements to abate Combined Sewer Overflows (CSOs) is
          estimated by an Environmental Protection Agency (EPA) Needs Survey at
          $44.7 billion. CSOs are the largest category of our Nation’s wastewater
          infrastructure that still need to be addressed. They impact 40 million Americans
          in 32 states (including the District of Columbia) through impaired water quality
          that adversely affects the health of humans, animals, and aquatic organisms, and
          cause beach closings and fishing and recreational restrictions.

          EPA issued a CSO Policy in 1994 that became law in December 2000. While
          EPA has instituted the program, there is uncertainty about what actions have been
          taken and their effectiveness. An earlier Office of Inspector General report
          focusing on EPA Region 2 noted various levels of success regarding CSO actions.
          To evaluate this issue on a national level, our objectives were to determine:

          •   What barriers, if any, need to be overcome in implementing the CSO Policy?

          •   What are examples of better practices?

          •   What levels of water quality or other outcomes are used to measure CSO
              Policy accomplishments? What improvements in the level of water quality
              have been achieved?

Background
          CSOs are the total discharges of untreated domestic, commercial, and industrial
          waste and wastewater, as well as storm water runoff, from a Combined Sewer
          System. Such a system collects and transports both sanitary sewage and storm
          water runoff in a single-pipe system to a wastewater treatment facility. As shown
          in Figure 1.1, a CSO event occurs when the total wastewater and storm water
          flow exceeds the capacity of the Combined Sewer System and, by design,
          discharges directly to the receiving water body. This usually occurs after
          excessive precipitation.

          Suspended solids, toxins, nutrients, heavy metals, pathogens, floatable matter,
          oils, and oxygen-demanding compounds are among the pollutants discharged with




                                          1                           Report No. 2002-P-00012
a CSO. Historically, CSOs have received very little, if any, treatment. Because
of the flow volumes and
the nature of the pollutants
discharged, CSOs may
pose a significant public
health and pollution threat.
Pollutants in CSO
discharges have been
shown to be a major
contributor to non-
attainment of water quality
standards. Non-attainment
events may degrade the
physical characteristics of
surface waters, threaten                   Figure 1.1: How CSOs Occur
potential drinking water
supplies, and impair the established uses of receiving waters (such as through
beach closures and shellfish harvesting restrictions).

EPA estimates the total number of Combined Sewer Systems represents 859
National Pollutant Discharge Elimination System (NPDES) permittees, regulating
9,471 CSO discharge points, located primarily in the Northeast, Middle Atlantic,
Midwest, and Northwest. The map in Figure 1.2 shows the location of CSO
                                                      communities. Combined
                                                      Sewer Systems were
                                                      constructed prior to the
                                                      1950s and exist primarily
                                                      in older, urban
                                                      communities. They vary
                                                      dramatically in size,
                                                      number of outfalls, and
                                                      frequency and volume of
                                                      discharge. About
                                                      90 percent of the Systems
                                                      are found in communities
                                                      of fewer than 100,000
                                                      people, and about
     Figure 1.2: CSO Communities in the United States
                                                      60 percent serve
communities with fewer than 10,000 people.



National projections of annual CSO discharges are estimated at 1,260 billion
gallons per year. CSOs discharge into the following receiving waters: rivers
(43 percent); streams (38 percent); oceans, estuaries, and bays (5 percent); lakes
and ponds (2 percent); and other waters (ditches, canals, etc.) (12 percent).



                                 2                            Report No. 2002-P-00012
In EPA’s 1996 Needs Survey for all wastewater needs (the latest available), the
$44.7 billion listed for CSO capital improvements (out of a total $120.6 billion)
was the largest category of wastewater infrastructure facilities. As required by
the Clean Water Act, states and EPA jointly prepare a survey of total documented
and modeled needs by state for publicly owned wastewater treatment facilities.
The Needs Survey represents the capital investment necessary to build publicly
owned wastewater treatment facilities and other types of facilities eligible for
State Revolving Funds. These other facilities include storm water, combined
sewers, and nonpoint source replacement and rehabilitation. The $44.7 billion
amount has remained constant, according to a 1999 House of Representatives
Subcommittee Hearing on Clean Water Infrastructure and Wet Weather Flows
Legislation.

CSO Policy

On September 8, 1989, EPA published a National CSO Strategy recommending
that all CSOs be identified and categorized according to status of compliance with
NPDES requirements. In order to accelerate efforts to bring CSOs into
compliance with the Clean Water Act, EPA met with state and local officials as
well as environmental groups in early 1992. The result was the development of
EPA’s CSO Policy published on April 11, 1994, which is currently in use. The
Policy provides guidance to permittees with CSOs, NPDES authorities, and state
water quality standards authorities for coordinating the planning, selection, and
implementation of CSO controls that meet Clean Water Act requirements.

In December 2000, Congress passed the Wet Weather Combined Sewer/Sanitary
Sewer/Watershed Pilot Project Program as part of EPA’s fiscal 2001 funding bill.
With the signing of this bill, the CSO Policy became a statutory part of the Clean
Water Act. The law required EPA to (1) prepare and issue documents that
provide guidance; (2) report to Congress on progress made; and (3) provide
Congress with a report summarizing environmental impacts, resources spent, and
technologies used. EPA accomplished the first task by issuing its July 31, 2001,
Guidance: Coordinating CSO Long-Term Planning with Water Quality Standards
Reviews. The second task was accomplished in December 2001 when EPA issued
Implementation and Enforcement of the Combined Sewer Overflow Control
Policy. The third task is to be accomplished by issuing a report to Congress in
2003.

On May 31, 1995, EPA issued its Guidance for Nine Minimum Controls. These
controls can reduce CSOs and their effects on water quality. They do not require
major engineering studies and usually can be implemented in less than 2 years.
According to the 1994 CSO Policy, CSO permittees are responsible for
developing and implementing long-term control plans that will ultimately result in
compliance with Clean Water Act requirements. Details are in Exhibit 1.




                                 3                          Report No. 2002-P-00012
        CSO Control Measures

        Communities use three types of CSO controls to implement the CSO Policy:

        •   Collection system controls are measures that remove flow from, or divert
            flow within, the Combined Sewer System to maximize the conveyance of
            flow through the system to the treatment facility. This category includes
            infiltration/inflow control, pump station capacity upgrades, expanded
            interceptor capacity, regulating devices and backwater gates, inflatable dams,
            flow diversion, real-time control, and sewer separation.

        •   Storage controls are measures that temporarily store combined sewage for
            subsequent treatment at the treatment facility once capacity becomes
            available. This category includes in-line storage, retention basins, and
            tunnels.

        •   Treatment controls are measures that reduce the pollutant load in CSO
            discharges. This category includes coarse screening, primary sedimentation,
            increased treatment plant capacity, swirl/vortex technologies, and disinfection.

        EPA’s CSO Progress Report
        In its December 2001 progress report, EPA found that cities that had made
        substantial progress and investments in CSO control were realizing public health
        and water quality benefits. EPA identified various challenges, including
        financial, water quality standard reviews, and information management and
        performance measurement. These same issues were noted by our review and are
        addressed in subsequent chapters of this report.

Scope and Methodology
        Our ability to draw valid conclusions concerning barriers and promising practices
        is based on applying an evaluation design involving collecting information from a
        broad range of sources. To determine the ways that CSO policy is arrived at and
        implemented in communities, and the relationships among levels of government
        in different parts of the country, we reviewed documents and conducted
        interviews and site visits at four different administrative levels. A complete
        listing of all participants visited and interviewed is in Exhibit 2; a summary
        follows.

        •   We conducted interviews at EPA’s Office of Wastewater Management, which
            sets and administers national policy and guidance on CSOs. This office is
            within the EPA Office of Water.

        •   We interviewed staff in EPA’s Great Lakes National Program Office and 3 of
            EPA’s 10 regional offices: Regions 1, 3, and 5. EPA’s regional offices work
            in partnership with the states and monitor their implementation of the CSO
            Policy. These three regions contain 678 of the 859 CSO permittees identified
            by EPA nationally, or 79 percent.

                                         4                           Report No. 2002-P-00012
•   We conducted structured interviews of officials in the state environmental
    protection offices of eight states within the three regions reviewed –
    Connecticut, Illinois, Indiana, Massachusetts, Michigan, Ohio, Pennsylvania,
    and Vermont. We conducted these interviews to determine their management
    of CSOs in the communities. We also reviewed and analyzed water quality
    reports and CSO policies, procedures, guidance, permits, correspondence,
    manuals, status reports, needs surveys, and state revolving fund information.
    These states contain a large majority of the communities with CSOs in the
    three EPA regions (549 of the 859 CSO permittees identified by EPA
    nationally, or 64 percent).

•   Most of our data collected was from extensive site visits in 22 communities
    with CSOs. In several instances our site visits involved regional groupings of
    communities. We administered structured interviews designed to solicit the
    thoughts of various officials in each of these communities. As part of each
    visit, we toured facilities and in some cases reviewed water quality and status
    reports. For each site, our team included a degreed engineer with extensive
    experience in wastewater collection systems. We selected the communities
    based on our review of information provided by EPA and state officials.
    Although we do not claim that these communities are “statistically
    representative” of CSO communities overall, we believe that because they
    encompass a variety of conditions (size, type of receiving water, and CSO
    approach), findings based on them will be useful in identifying barriers and
    promising approaches that can be used elsewhere.

To include a broader range of opinions, we interviewed representatives from two
industry organizations that represent municipal sewage treatment officials: the
CSO Partnership and the Association of Metropolitan Sewerage Agencies. We
also held large scale “roundtable discussions” in three states (Michigan, Ohio, and
Pennsylvania) that included representatives of other communities, outside
consultants, and a court monitor responsible for oversight of CSO contols in the
Rouge River Watershed.

We conducted field work from April through November 2001. We conducted this
evaluation in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.

Prior Audit Coverage

We previously issued a report on the CSO program, Combined Sewer Overflows
in Region 2 (2001-P-00001), dated January 3, 2001. The report noted that despite
steady water quality improvement over the past two decades, CSOs continued to
impair New York and New Jersey water bodies. In that report, we also found that
certain communities had made significant efforts to address CSOs, resulting in
varying degrees of success.



                                 5                           Report No. 2002-P-00012
6   Report No. 2002-P-00012
                               Chapter 2
       CSO Implementation Efforts Have Varied

         States have been implementing CSO programs for decades with varying success.
         Some states have given the CSO program a high priority, which resulted in the
         reduction of CSO permittees/outfalls. Other states have not given implementing
         CSO projects as much priority. In addition, states were at different stages in
         reviewing and approving long-term control plans for implementing CSO projects.
         Two states in our review offered financial assistance to communities through state
         grant funding accompanied with low interest loans.

Differing Progress in Eliminating CSOs
         We found that the overall progress made on CSO abatement appeared to be
         consistent with the level of priority a state gave to the CSO program. The
         situation in three states illustrates this point.

         •   The Vermont Department of Environmental Conservation was a leader in
             ensuring that most of its communities had undergone sewer separation during
             the 1990s. CSO permittees were reduced from 27 in 1990 to 7 in 2001. CSO
             projects received priority ranking for State Revolving Fund loans and were
             eligible for 25-percent state grant funding. (Further details on grant programs
             are in Chapter 4.)

         •   A Connecticut Department of Environmental Protection memorandum, issued
             February 22, 2001, stated that CSOs were a priority water quality issue for
             years, as evidenced by pollution abatement orders that had been issued as
             early as 1975. CSO projects received priority ranking for State Revolving
             Fund loans and were eligible for 50-percent state grant funding. While there
             were 13 CSO communities with 246 outfalls during the 1970s and 1980s,
             there were only 8 CSO communities with 121 outfalls in 2000.

         •   Pennsylvania, which has the greatest number of CSO communities (155) and
             discharge points (1,662) in the nation, has actually had its CSO numbers
             increase slightly (due generally to newly discovered discharges). CSO
             abatement was not a high priority, according to the Pennsylvania Department
             of Environmental Protection officials, who said they had not been proactive
             during the first round of CSO permits. Competing priorities for staff included
             in-stream assessments, combined animal feeding operations, and total
             maximum daily loads. The state included conditions for the implementation
             of the CSO policy in its NPDES permits. However, compliance was low and


                                          7                           Report No. 2002-P-00012
            the state did not follow up because of limited resources and competing
            priorities. Since December 2000, Region 3 pressured Pennsylvania to give
            CSOs a higher priority. Pennsylvania issued a CSO policy on January 30,
            2002, committing significant state time and resources. Additionally, the
            General Assembly of Pennsylvania introduced a bill to establish a grant
            program to assist municipalities in addressing CSO impacts.

        EPA regional staff also indicated that prior to the passage of the 2000 Wet
        Weather Water Quality Act, some states saw the CSO Policy as a policy and not
        as a law or regulation. This prior viewpoint had an impact on the level of CSO
        policy implementation.

Varying Levels of Long-Term Control Plan Implementation
        We also found states with varying levels of success in developing and
        implementing long-term control plans for CSO. For example, we noted the
        following for four different states we visited in Region 5.

        •   Indiana: Only 6 communities (less than 10 percent of the 88 CSO
            communities) had submitted their plans for approval. The Indiana
            Department of Environmental Management had scheduled dates for additional
            submissions through 2003.

        •   Michigan: All plans had been submitted and received some degree of state
            approval.

        •   Ohio: Only 29 of 91 CSO communities submitted plans, 12 of which have
            been approved.

        •   Illinois: Most communities were meeting state treatment standards for CSOs.
            Where CSOs continue to cause or contribute to water quality standards
            violations, additional long-term controls will be needed.

        EPA’s 2001 Report to Congress noted that municipal progress was slow in
        developing long-term control plans. Specifically, the report indicated that only
        34 percent of CSO communities reviewed had submitted draft plans for approval.

        Once long-term control plans are approved, communities are taking different
        approaches in controlling CSOs (such as separating sewers, constructing retention
        basins, and building storage tunnels). Also, some states implement one project to
        control several CSO outfalls in neighboring communities. This maximizes cost
        savings while eliminating multiple CSOs within one geographical area. For
        example, since 1994, the Metropolitan Water Reclamation District of Greater
        Chicago received $151 million for a tunnel and reservoir project covering 40 CSO
        communities.




                                        8                          Report No. 2002-P-00012
Strategies and Guidance
        All states visited have either developed CSO strategies and programs to abate
        CSOs or adopted the policy to their existing program. Additionally, some states
        adopted criteria to further assist with implementing their programs. For example,
        in July 2000, Indiana passed Senate Enrolled Act 431 to provide relief and
        facilitate long-term control plans for communities with substantial and
        widespread economic and social hardship. In addition, several states had CSO
        requirements that predated the 1994 policy. For example:

        •    Illinois had a CSO policy since the 1960s. Several communities addressed
             and planned for CSO needs in the mid-1980s through Municipal Compliance
             Plans. Most sewer separation projects were completed even before the CSO
             Policy was written.

        •    In Ohio, Toledo completed construction of an underground storage tunnel in
             1993 that had been initiated in 1987. This project eliminated 12 of Toledo’s
             35 CSO points.

        •    Michigan adopted a CSO strategy in January 1990 to establish enforceable
             deadlines for CSO controls and to eliminate or adequately treat all CSOs.

        Most states have adopted EPA’s approaches for targeting CSO controls and
        discharge requirements. States may adopt requirements that are even more
        stringent than EPA’s CSO Policy. For example, EPA’s CSO Policy’s
        presumption approach allows an average of four untreated CSO events per year,
        while Michigan adopted a more stringent requirement that does not allow for any
        untreated discharges.

Conclusion
        States and communities have been working for decades addressing CSOs. States
        in all three regions we visited made efforts to abate CSOs, but not all states set
        CSO abatement as a high priority, which ultimately delayed progress towards
        eliminating CSO outfalls. Other competing priorities included stormwater, in
        stream assessments, combined animal feeding operations, and total maximum
        daily loads. While all states adopted CSO strategies and guidelines, long-term
        control plan implementations were at different stages.




                                          9                          Report No. 2002-P-00012
10   Report No. 2002-P-00012
                                Chapter 3
                  Significant Barriers Remain

         The nation has made steady progress reducing the number of CSOs. The number
         of systems with CSOs has been reduced from approximately 1,300 to 859 since
         1978, based on data provided by EPA. We visited and interviewed officials from
         21 communities and 1 water authority (comprising 43 communities). At each
         one, we asked officials about the barriers they encountered in addressing CSOs.
         They provided us with numerous items, including: the expensiveness of projects,
         the lack of available funding, competing priorities, increasing user rates,
         decreasing industrial bases, the absence of grant programs, state legal
         requirements, land availability, community opposition, water quality issues, and
         other pollution sources.

         We analyzed these many concerns and combined them into two significant
         barriers that hampered efforts to achieve EPA’s goal of ensuring that there is a
         comprehensive and coordinated effort to achieve cost effective CSO controls that
         ultimately meet appropriate health and environmental objectives:

         •   Raising and obtaining sufficient funding for often expensive projects.

         •   Finding suitable sites for the needed facilities.

         While progress is being made in addressing the barriers, the task can at times be
         daunting. Table 3.1 shows how the majority of these communities encountered
         these barriers. The table includes six communities that encountered both.

                                        Barriers                    Number

                            Funding Limitations                       15

                            Finding Suitable Sites                     8

                                        Table 3.1: Major Barriers


         In Chapter 4, we will describe some of the promising practices states and
         communities have developed or implemented to address these barriers. The water
         quality barriers are further discussed in Chapter 6.

Funding Most Significant Barrier
         As can be seen from Table 3.1, funding was cited most often as a major barrier to
         implementation of EPA’s CSO Control Policy (15 of the 22 visited). This is not
         surprising considering the huge sums that are often necessary to implement long-

                                           11                              Report No. 2002-P-00012
term control plans. EPA’s 1996 Needs Survey (the latest available) lists CSO
capital improvements at $44.7 billion. Communities large and small, suburbs and
inner cities, often cited funding as critical. Although EPA and individual states
have devised approaches to facilitate many projects, the bulk of resources are
raised locally. Significant variations exist among different types of communities
in their ability to raise the funds needed.

Communities Face Affordability Issues

The expense of controlling and abating CSOs can strain the financial resources of
any community. Even obtaining a State Revolving Fund loan (to be discussed
further in the next subsection) by itself can create significant debt repayment
pressure on a locality’s budget. Examples of the funding impact on small, mid-
sized, and large communities follow:

•   Small Community: Paulding, Ohio, a village with a population of
    approximately 3,000, had a CSO need of $11.7 million, according to the 1996
    Needs Survey. Paulding had to struggle to finance its CSO projects with
    bonds and notes because it could not get State Revolving Funds. It increased
    sewer utility rates and initiated a city income tax. While it has eliminated 16
    of its 18 CSO points over the past 10 years, its proposed long-term control
    plan foresees a separation project that will take another 20 years to complete.

•   Mid-Sized Community: New Haven, Connecticut, a city with a population
    of about 100,000, had an estimated CSO need of $291 million, according to
    its 1988 Facilities Plan. New Haven has been working toward the removal of
    CSOs since 1981, and has reduced its number of CSOs from 22 to 19. The
    City has borrowed $28 million from the State Revolving Fund and also
    received $13 million in grants from the State of Connecticut. Nonetheless,
    New Haven Water Pollution Control Authority officials estimated its current
    user rates will rise from $165 to $630 per annum to pay for all the CSO work.

•   Large Community: Detroit, Michigan, has a mixed sewer system serving
    about 3 million people (about 1 million in the city and 2 million in 77
    neighboring communities). The City’s Preferred Plan estimated a need for
    about $1 billion in CSO work. The Detroit Water and Sewerage Department
    has 78 CSO outfalls that discharge approximately 20 billion gallons each year.
    Several projects have already been initiated. Detroit has received about
    $188 million in State Revolving Fund loans and $98 million in grant funds for
    CSO projects. In funding the work, a major issue has been how much is to be
    funded by the City of Detroit versus the suburban communities that it
    services.

One issue facing all communities is the competing priorities that exist for the
limited financial resources. Many local officials told us they have other important
projects requiring substantial financing, such as highway and road repair,
wastewater treatment plants, park maintenance, libraries, and hospitals. In
addition, they have more visible services to fund, such as police, fire, and
                                 12                          Report No. 2002-P-00012
emergency services; education; and sanitation. For example, the mayor of
Haverhill, Massachusetts, wrote to EPA that its ability to borrow for CSO work
was being impeded by financial difficulties stemming in part from a $1-million-a-
month operating loss at the city’s hospital.

The Association of Metropolitan Sewerage Agencies, in a February 2002 report,
The National Response to Combined Sewer Overflows, noted that annual
investments in CSO long-term control plan implementation represented an
unusually large portion of a community’s total capital improvement plan budget.
According to its survey respondents, communities had dedicated, on average,
36.8 percent of their capital improvement plan budgets for CSO controls. Further,
EPA, in its December 2001 report to Congress, noted that addressing competing
priorities was a concern.

State requirements can also limit a community’s options. For example, the
Headlee Amendment to Michigan’s State Constitution (passed in 1978) and
“Proposal A” (passed in 1994) limit the ability of local governments to fund
projects such as sewage infrastructure through property taxes. Communities
cannot increase rates to pay for CSO and Sanitary Sewer Overflow improvements
through water rates; they need to submit increases to residents through tax
increases.

Communities that are already economically distressed will have difficulty funding
CSO projects. The loss of business or weakening of the industrial base of a
community can also be a contributing factor to affordability. For example, the
Environmental Law Institute reported in its 1999 report, Plumbing the Future,
Sewage Infrastructure and Sustainability in Western Pennsylvania, that the area
was facing an estimated $3 billion to address CSOs while the area’s population
was significantly declining and the tax base shrinking. We also noted that many
municipalities in Region 5 have lost tax revenues because of a declining industrial
base.

State Revolving Funding Limited

The Clean Water State Revolving Fund program is one of the major funding
mechanisms for CSO communities, but even with its significant resources it
cannot provide all the money needed to address the CSO problem. Further, there
are other competing water project needs for State Revolving Funds besides CSOs,
such as secondary and advanced treatment, new interceptor and collector sewers,
infiltration/inflow correction, sewer replacement/rehabilitation, storm water, and
nonpoint sources.

The State Revolving Fund was authorized in 1987 to finance a range of
environmental projects, and replaced the Construction Grants program. Under the
program, EPA provides grants or “seed money” to all 50 states, Puerto Rico, and
the District of Columbia to capitalize state loan funds. The states, in turn, make
loans to communities and others for high priority water quality activities. As
money is paid back into the revolving fund, new loans are made to other

                                13                           Report No. 2002-P-00012
recipients. Through June 30, 2000, the program had more than $34 billion in
assets and had lent $28.9 billion to communities nationwide. However, only $2.1
billion of that funding had been provided for CSO projects. CSO loans in 2000
were the highest ever, accounting for $411 million, or about 12 percent, of total
State Revolving Fund assistance.

Even if a State Revolving Fund loan is obtained, most of the money for water
pollution controls must be generated locally. Typically, operational costs are
generated from user fees, usually water and sewage treatment charges. There are
various options for capital improvements: (1) property taxes; (2) special
assessments; (3) tax increment financing; (4) water and sewer hook-up fees;
(5) water and sewer use charges; and (6) advanced sale charges for sewer
capacity. As noted in Table 3.2, which addresses the four states visited in
Region 5, only a small portion (4.2 percent) of CSO needs since 1996 were met
by State Revolving Fund loans issued since 1994:

                   Loan Funds             1996 Needs              Percentage of
                   Since 1994               Amount               1996 CSO Needs
      State         (millions)             (millions)                  Met

 Illinois              $157                 $ 9,383                    1.7%

 Indiana                376                    4,463                   8.4%

 Michigan               300                    3,723                   8.1%

 Ohio                     71                   4,199                   1.7%

      Total            $904                 $ 21,768                   4.2%
                       Table 3.2: Loan Funding and Needs Met


To maximize the number of projects receiving loans, states have put caps on the
amount that can be provided to any one community or project in a given year.
However, larger municipalities say this does not allow them to receive enough
money for their large projects, while smaller communities expressed concern that
they still do not receive enough money. Also, caps varied from state to state. For
example, in Michigan, the cap was 30 percent, while in Massachusetts it was
20 percent.

Another aspect of the State Revolving Fund that concerned communities was that
many CSO-associated costs are not eligible in some states. For example, the
Fund does not pay for telemetry monitoring of the sewer system, project
performance certification, lawn restoration, water main replacement, street
paving, sewer repair, and studying and planning the project. Port Huron,
Michigan officials estimated that costs for studying and planning account for
approximately 5 to 10 percent of the total project cost. Springfield, Vermont
officials stated that purchase of capital equipment such as vactors (machines that
vacuum debris and grit from sewers and catch basins) and sweepers should be
eligible items under the


                                 14                            Report No. 2002-P-00012
          State Revolving Fund program. State Agencies, rather than EPA, determine
         eligibility of program costs.

         Regional and state staff advised us that some communities may not seek State
         Revolving Fund loans in the hope that a CSO grant program will be established or
         Congressional earmarks provided. Obviously, most communities would prefer
         receiving grant funds to having to repay a loan. In particular, economically
         distressed communities that cannot afford the debt service that would be required
         to finance a costly CSO project may be especially in need of grant funds.

         In Michigan, some economically distressed communities in rural areas have
         sought funding administered by the U.S. Department of Agriculture for their CSO
         needs instead of State Revolving Fund loans. These communities found the
         advantages to be a mix of grant and loan funding and longer repayment periods
         (40 years for Agriculture as opposed to 20 years for the State Revolving Fund).
         However, sometimes such funding is not advantageous, since the repayment
         period can be longer than the useful life of the project.

Finding Suitable Sites Can Also Be an Obstacle
         The second major barrier to meeting EPA’s CSO remediation goals involves
         finding acceptable locations for CSO facilities. In many of the communities we
         visited, such issues as land availability, community opposition, competing land
         usage (including economic development), and land ownership had complicated
         matters. Communities’ abilities to design or construct CSO projects can be
         affected by whether there is somewhere to place these projects. CSO projects
         often involve dedicating large parcels of land for retention basins and other
         structures. At times, these need to be situated at or close to the waterfront, which
         is property that is often valuable.

         Communities can be stymied in implementing their CSO control projects because
         of a lack of available land. For example, Garden City, Michigan cannot meet the
         Michigan Department of Environmental Quality maximum allowable flow of
         24.1 cubic feet per second for its system. The city’s current projected peak flow
         is 70 cubic feet per second. To reduce the flow, the city may have to build a large
         retention basin (for $57 million) or a tunnel (for $47 million). However, the city
         does not have available land to build either, let alone money to finance the
         project.

         Community opposition is also a barrier to CSO projects. We will discuss some
         successful approaches to this issue in Chapter 4. Citizens may voice concerns
         about CSO projects because they have not been educated about the importance
         and benefit of the project, they are concerned with the loss of park land or other
         recreational facilities, and they may have a “not-in-my-backyard” opinion. We
         encountered several of these scenarios during our visits. For example, the
         Massachusetts Water Resources Authority proposed to construct a pumping
         facility on vacant land next to an existing power plant and pier. Due to
         neighborhood opposition, the design work was halted in January 2000. An
                                          15                           Report No. 2002-P-00012
        alternative site suggested by the neighborhood was not available. The status of
        the project was described in the Authority’s annual plan as “design on hold
        pending project reassessment.”

        In some cases, communities had to make compromises in their original plans to
        site their projects. In Detroit there was not enough available land for needed CSO
        facilities. Occasionally, the city was faced with taking court action to obtain a
        needed site. In other cases, facilities would have to be put at less advantageous
        locations and at greater expense because of existing buildings, industries, etc.
        For example, the Hubbell-Southfield retention facility (see Figure 3.1) was
        intended to handle a l-year, 1-hour storm for a duration of 30 minutes. However,
        because of location constraints and land availability (the site is surrounded by the
        Tournament of Players Championship Golf Course and the Rouge River), the
        facility can only handle this type of storm for a duration of 18 minutes. As a
        result, this biggest of the Rouge River demonstration projects was designed not
        based on a particular storm event but to fit the largest possible basin on the land
        available. In another example, New
        Haven, Connecticut officials said
        siting could be an issue because
        they propose to build underground
        storage tanks on park land, which
        could disrupt or close the parks for
        2 years.

        Also, since CSO projects may take
        years to develop, an area initially
        planned as part of the project may
        become more desirable later as a
        result of economic development,
        and is no longer affordable.
        Waterfront property in South          Figure 3.1: Hubbell-Southfield Retention Facility
        Boston was identified as an           Overflow Gates
        example. Also, in our prior January
        2001 report, we noted that the Hudson River waterfront areas in Hoboken and
        Weehawken, New Jersey had recently undergone explosive growth, and the
        developers had been reluctant to grant easements to the local authority to access
        CSO outfalls. There were concerns over siting, CSO control facilities, and the
        use of end-of-pipe netting in areas where high-priced residences were being
        constructed.



Conclusion
        There are two main barriers that communities face and need to overcome in
        reducing CSOs and the water pollution they cause. The most significant is
        financial - there is presently not enough funding to meet the needs of all CSO
        communities and many communities are being financially strained. A second
                                           16                            Report No. 2002-P-00012
major barrier involves finding acceptable locations for CSO facilities, due to such
complicating factors as land availability, community opposition, competing land
usage, and land ownership.




                                17                           Report No. 2002-P-00012
18   Report No. 2002-P-00012
                                    Chapter 4
    Many Promising Practices Used by States and
     Communities Have Improved CSO Program

         States and communities have demonstrated a wide variety of cost effective and
         promising practices that could be used by others with CSO programs to address
         funding and siting barriers. In Chapter 3, we noted that raising and obtaining
         sufficient funding for expensive capital projects was the largest barrier to the
         success of the national CSO program. We found that some states have or are
         considering assisting their communities with direct financial aid through grant
         programs. Local governments are educating their citizens on the benefits of CSO
         programs and the need to raise sewer rates to fund these projects. Locally, it was
         also found that improving community facilities and working cooperatively with
         other agencies to minimize disruptions can be beneficial. Additionally,
         communities brought to our attention various technical practices that can improve
         system efficiency and aid in making CSO projects more affordable.

         Table 4.1 describes the relationship between the types of promising practices and
         the barriers CSO communities face.


                         Barriers                                 Practices

             Funding                              C               State Grants
                                                  C               Coordination/Cooperation
                                                  C               Technical

             Funding, Siting                      C               Education
                                                  C               Dissemination

             Siting                               C               Improved Facility
                       Table 4.1: Barriers Addressed by Promising Practices




State Grant Programs Aid Affordability
         Two of the eight states we visited have established CSO grant programs to help
         communities pay for the construction of CSO projects in a more timely manner.
         A third state was considering implementing a grant program.

         C     Connecticut established its CSO grant program in 1986. The program
               provided grants for 50 percent of the Federal eligible project costs along with
               a State Revolving Fund loan at 2 percent interest for the remainder of the
               costs. Since 1988 Connecticut awarded $173 million to eight municipalities.

                                               19                             Report No. 2002-P-00012
             The Director of Engineering and Planning at the Hartford Metropolitan
             District Commission stated the program had a positive impact on debt service
             and made CSO abatement a viable program, since independently Hartford
             could not issue $80 million in debt. The Assistant General Manager of the
             New Haven Water Pollution Control Authority also said that the grant/loan
             program made the CSO projects more affordable and had a positive impact on
             user rates. Without the funds, New Haven’s water rates would go beyond
             EPA’s affordability cap. The Assistant General Manager further said that the
             Authority was able to do more projects more quickly and, without the
             funding, would not be able to meet the 12-15 year time frame provided in its
             long-term control plan.

         C   Vermont awarded 25-percent grants for construction costs and loans of
             50 percent of eligible project costs from the State Revolving Fund. The
             remaining 25 percent was expected to be locally raised. Grants through fiscal
             2000 totaled $6.6 million. The Springfield Town Manager stated that without
             the grant funds it would be hard to sell a CSO project to the voters for
             approval. The town had recently finished a $4 million project for which it
             received $1 million in state grant funds and a 50-percent loan at close to zero-
             percent interest. The Rutland Commissioner of Public Works also stated that
             grant funds were beneficial and helped keep user rates down.

         C   Pennsylvania was also considering a CSO grant program. Pennsylvania’s
             General Assembly introduced Senate Bill 150 on January 29, 2001, to
             establish a grant program to assist municipalities in addressing CSO impacts.
             The bill proposes approving $1 billion for the program.

Educating the Public Reaps Benefits
         The public does not always understand the benefits to be derived from CSO
         projects that may significantly raise their user rates and require temporary or
         permanent disruption of land use. Public officials in turn may not be willing to
         counter public sentiment. Therefore, communities found that it was important to
         engage and inform their stakeholders early and maintain communication
         throughout the CSO project process. Education is a vital tool that can eliminate
         potential barriers or opposition related to funding and siting, provide support for
         the project, and reduce overall costs and disruptions. Many state and local
         officials stated that public education is important because the public is usually
         more willing to pay for improvements it can see and understand. For example:

         C   A Rouge River Public Involvement Action Plan was devised in the fall of
             1994. The goal was to engage numerous stakeholders, inform them, gain their
             support, and encourage them to change their behavior to help achieve and
             maintain a healthy watershed. A series of fact sheets and brochures were
             prepared for the general public as well as for a more technical audience
             regarding different elements of the Project. Printed materials were distributed

                                          20                           Report No. 2002-P-00012
            with a portable display; provided to local governments to distribute; and
            incorporated into public information packets for local officials, the general
            public, libraries, and schools. A June 1998 Project report on lessons learned
            noted that broad-based public education and involvement programs were
            critical for overall success. Some of the programs that they found had worked
            were: getting education programs going in area schools; getting people out to
            the stream to look at and experience it; and showing people some obvious
            things that have been done to get successes in improved water quality and
            then widely publicizing the results.

        C   Hartford, Connecticut developed a public education campaign that helped the
            successful passage of a referendum for funding part of its CSO project.

        C   New Haven, Connecticut issued a series of newsletters explaining CSO plans,
            costs, and benefits to city aldermen and local environmental groups. The city
            found that educating local public officials about CSO needs eased local
            constituency concerns.

        C   Springfield, Vermont officials visited schools and local groups, such as
            garden/sewing clubs, to explain why CSO abatement was important and
            deserving of town funding. Town officials worked with local media to take
            pictures and report on the issue.

        C   Ohio roundtable participants stated that by focusing on basement flooding
            issues that directly affected residences and businesses, they were able to sell
            CSO projects to the public. Citizens could better understand and appreciate
            how the projects could immediately benefit them.

        C   Toledo, Ohio worked with the children living in the Maumee River basin by
            having school children take water samples and do stream cleanups, thus
            learning the importance of protecting their receiving stream.

Improved Community Facilities Can Result
        The final constructed project can be aesthetically pleasing and bring improved
        facilities to the local community in which it’s built. Neighborhood opposition to
        the siting of a CSO project can be overcome when citizens are convinced there
        can be benefits to the community in addition to the obvious environmental ones.
        We visited a number of facilities in the Rouge River Project that demonstrated
        this fact.




                                         21                           Report No. 2002-P-00012
               Wayne County had three retention
               facilities constructed as part of the
               Rouge River National Demonstration
               Project. The Redford Township CSO
               Retention Basin was constructed under
               the seventh hole of the Glenhurst Golf
               Course. The Dearborn Heights CSO
               Retention Basin was constructed on a
               landfill that was subsequently
               landscaped with a soccer field, gazebo,
               bicycle rack, and parking. The Inkster    Figure 4.1: Recreational Facility Sitting on Top of
               CSO Retention Basin added multiple-               the Inkster CSO Retention Basin
               use recreational facilities (basketball
                                                               court and playground equipment)
                                                               on top of the storage tank (see
                                                               Figure 4.1). All three constructed
                                                               attractive buildings to house any
                                                               above ground machinery.

                                                               Oakland County also blended its
                                                               three Rouge River retention basins
                                                               into the local environs. One was
                                                               built under a golf course, another
                                                               was built in a nature preserve, and
              Figure 4.2: Control Building (Birmingham Hills)  the third was built in a park. The
                             Retention Basin                   latter one (Birmingham Hills) had
                                                               a control building that was
designed to resemble a gristmill (see Figure 4.2). Also, extensive woodlands landscaping was
completed to blend with the aesthetics of the site. County officials even described how a real
estate agent had stopped by and wanted to list the house.


Government Agency Cooperation Achieves Better Results
               To address the funding barrier, communities found that working cooperatively
               with state offices or coordinating between appropriate municipal departments can
               improve the planning process, reduce costs, lessen disruptions, and increase
               timeliness of project completion.

               C   In Michigan, officials for Michigan Department of Environmental Quality
                   noted the value of involving everyone who might have an interest or stake in
                   the project. They found that integrating state offices (i.e., Michigan
                   Department of Transportation) and city offices (i.e., a local Office of
                   Development) at the beginning of a CSO project significantly reduced costs
                   and disruptions. Port Huron officials reported saving money by coordinating
                   their work with road repairs conducted by the state Department of
                   Transportation. Lansing officials reported that constant and frequent
                                               22                              Report No. 2002-P-00012
             communication with the regulatory community, homeowners, businesses, and
             other city and state departments resulted in less confusion, better planning,
             and better project understanding.

         C   Ohio roundtable participants stated that the coordination of CSO projects with
             other major construction projects, as well as with state or Federal agencies,
             had minimized disruptions.

Better Technical Practices
         The municipalities visited implemented some technical practices and approaches
         that can be beneficial to other CSO communities. They ranged from broad-based
         initiatives to more specific operational actions. While these practices cannot
         necessarily be universally used, they offer opportunities to lessen financial needs
         or improve Combined Sewer System efficiency and effectiveness, and can assist
         communities in addressing affordability issues. Following are some success
         stories:

         •   The Rouge River Project, which involved 48 communities in the Detroit,
             Michigan metropolitan area, provided several examples of better practices of
             a technical nature. Under Phase I, 8 communities constructed 10 retention
             treatment basins. Each basin was sized for different storm events, and several
             used innovative technology. The facilities also incorporated a variety of
             additional features or variations in compartment sizing and sequencing (such
             as a first-flush chamber) to improve effectiveness. From this approach, the
             Rouge River Project team determined that desired water quality results could
             be achieved without constructing massive facilities. In addition, the lessons
             learned by comparing the various methodologies will assist Rouge River
             Project communities in the design of future CSO facilities and reduce project
             costs.

             Another lesson learned from the Rouge River Project was that it was
             beneficial for plant operators to be involved in the entire facility design
             process. By obtaining their input, they were able to point out a variety of
             issues to the design engineers that avoided the need for future modifications.
             Additionally, operators seemed to perform better and with higher morale
             because they were members of the design team and their ideas were valued
             and implemented by the designers.

         •   Hartford, Connecticut applied the concept of flow slipping in the Wethersfield
             Cove drainage basin area. The concept involves reducing street ponding
             during wet weather events. Flow slipping allows storm water runoff to bypass
             the CSO catch basins and flow directly to newly constructed storm water
             catch basins (separated storm drains). Hartford saved money by not having
             to: (1) construct catch basins on every street and (2) treat all the storm water


                                          23                          Report No. 2002-P-00012
             collected. It should be noted that flow slipping is topographically limited and
             cannot be used everywhere.

         •   The Massachusetts Water Resources Authority (the water and sewer agency
             for greater Boston) used underflow baffles for floatable control. These baffles
             (barriers) are used to prevent floatable material (such as plastic bags, straws,
             bottles, bottle caps, and cigarette butts) from entering the system and ending
             up in the receiving water body.

         •   Springfield, Vermont addressed affordability when it reduced the amount of
             salt/sand it uses in winter. The town used a spreader that reduced the amount
             of salt/sand by 30 to 40 percent without reducing road clearing effectiveness.
             This approach reduces the material that can build up in the sewer system and
             reduce flow capacity.

         •   Rutland, Vermont and New Bedford, Massachusetts both described aggressive
             preventive maintenance programs, including such techniques as TV
             inspections of sewer lines, cleaning of sewer lines and catch basins, and street
             cleaning. Such actions improved system effectiveness and reduced overall
             operating costs.

         •   Paulding, Ohio cleaned its existing wastewater treatment lagoons to increase
             their capacity to handle CSOs. City officials said that, as a result, the city
             avoided having to construct costly CSO retention basins to contain the storm
             water.

         •   Crafton, Pennsylvania bought and maintained undeveloped land to act as a
             buffer to receiving waters by absorbing runoff. In addition, Crafton
             maintained about 25 percent of its streets as brick, which has water absorption
             qualities as well as historical and aesthetic value. Further, Crafton bought
             additional trash barrels, which helped reduce street trash and subsequent
             floatables.


Dissemination of Better Practices Needed
         There currently is no central mechanism for EPA or the states to disseminate
         information to CSO permittees about the various better practices that are being
         used. EPA’s CSO Coordinator stated that there is a need to develop a plan to
         establish a technology clearinghouse.

         During our evaluation, we found many instances where communities were
         unaware of established practices that could be of benefit to them. We provided
         them with examples from other municipalities we had visited and contacts to seek
         further information. For example, we provided the Defiance, Ohio Water


                                          24                          Report No. 2002-P-00012
        Pollution Control Superintendent with contacts in Port Huron, Lansing, and New
        Bedford to discuss their CSO control activities.

        Individual websites do exist where some information can be obtained. Several
        examples are noted in Table 4.2:

                                Source                                       Website

          Massachusetts Water Resources Authority                 www.mwra.com

          3 Rivers Project                                        www.3riverswetweather.org

          Rouge River Project                                     www.wcdoe.org/rougeriver
                             Table 4.2: Websites with Best Practices Information


        Rouge River Project officials also met with officials from many CSO
        communities to discuss the project and the actions taken. Information is also
        exchanged at seminars and meetings that professional organizations hold
        throughout the year. However, there is no one place where interested parties can
        find all the available information.

Conclusion
        States and communities have demonstrated a number of promising practices to
        address the funding and siting barriers that are faced in implementing the CSO
        Policy. Two New England states have aggressively addressed the affordability
        issue by providing grants and low interest loans. There is also widespread
        agreement that public education is a vital tool in engaging all stakeholders.
        Additionallly, communities have shown that the cooperative effort of all levels of
        government can be beneficial. Further, communities have used innovative
        approaches to improve CSO controls and make them more efficient and/or cost
        effective. However, with all these positive actions, there needs to be a central
        mechanism so that other CSO communities take advantage of this wisdom.

Recommendation
        We recommend that the Assistant Administrator for Water ensure that:

         4.1 EPA develop a system to catalog and disseminate lessons learned and
             better practices about CSOs. EPA should establish a website where such
             information can be posted and information easily accessed for use.




                                            25                              Report No. 2002-P-00012
26   Report No. 2002-P-00012
                              Chapter 5
       Limited Data Available on Improvements
                   to Water Quality

        The CSO communities visited had varying amounts and types of data available to
        determine the success of their CSO projects. Most communities were only
        monitoring the number, volume, and duration of CSO discharges. Few of the
        communities visited had formally collected data on the effect CSO controls were
        having on the quality of receiving waters. Without such data, it could not be
        determined whether each project was a wise investment of taxpayers’ dollars.
        Water quality generally was not monitored because EPA policy does not require
        monitoring until completion of the CSO project, even though these projects have
        multiple steps and can take years to complete.

CSO Policy Requires Monitoring Program
        During long-term control plan development, the CSO Policy expects CSO
        communities to collect data to assess baseline conditions in the receiving water
        and evaluate the potential effectiveness of any proposed controls in improving
        water quality and supporting uses of the water body. Permittees are expected to
        develop a comprehensive, representative monitoring program that measures the
        frequency, duration, flow rate, volume, and pollutant concentration of CSO
        discharges and assesses CSO impact on receiving waters. The Policy also calls
        for a post-construction compliance monitoring program that verifies compliance
        with water quality standards and protection of designated uses and ascertains the
        effectiveness of CSO controls.

Many Communities Did Not Have Monitoring Data
        We found that most communities had limited monitoring data on the effect of
        CSO controls they instituted on water quality. These communities generally only
        measured the changes in the number, volume, and duration of effluent being
        discharged by CSOs. This was because they had not completed their CSO
        projects. As noted in Chapter 2, EPA recently reported that only 34 percent of
        CSO communities in its review had even submitted draft long-term control plans
        to states for approval. Once approvals are issued, complete implementation of
        these plans can take 10 to 15 years. Since many communities do not plan to
        perform monitoring until the post-construction phase, there is limited knowledge
        of the effects of CSO controls on water quality.

        For example, Connecticut Department of Environmental Protection officials
        stated that they were not aware of any studies to indicate whether CSO abatement

                                        27                          Report No. 2002-P-00012
        efforts had improved water quality in CSO receiving waters. Officials from the
        three Connecticut cities we visited confirmed that they had not conducted any
        CSO water quality monitoring. Connecticut’s State Revolving Fund had loaned
        out about $75 million for CSO projects since 1987.

        Vermont was another New England state where CSO communities indicated they
        had not conducted any CSO water quality monitoring. Officials in both Rutland
        and Springfield stated that they had not done any measurements of water quality
        related to CSOs. Vermont Department of Environmental Conservation officials
        stated that communities were required to submit an assessment of the success of
        long-term control plan implementation. Vermont’s State Revolving Fund had
        loaned out about $37 million for CSO projects since 1987.

        In Pennsylvania, the Executive Director of the 3 Rivers Demonstration Project
        stated that there were not enough controls in place yet to measure water quality
        because their work was not far enough along. Allegheny County Sanitary
        Authority officials also stated that water monitoring will not take place until the
        long-term control plan is implemented.

Some Communities Do Monitor Water Quality
        Several of the CSO communities we visited had performed extensive monitoring
        and had data to show that water quality had improved since the implementation of
        CSO controls.

        The Rouge River Project had an extensive monitoring program. It was performed
        in conjunction with the Michigan Department of Environmental Quality’s August
        1998 Final Criteria for Success in CSO Treatment. The criteria noted, “We
        expect to develop criteria for success in treating CSO discharges statewide, based
        on experience gained from the Rouge River demonstration project.” The criteria
        set three goals and a detailed listing of procedures to evaluate the goals and
        information that was to be reported. For example, the final goal was to achieve
        state water quality standards in the receiving stream at times of discharge.

        An extensive database on water quality was also compiled by Toledo, Ohio since
        1968 as part of the city’s Water Quality Monitoring program. This program
        produced a detailed study of CSO impacts. The information was used to plan
        major upgrades of the city’s treatment and interceptor system. In addition, the
        program developed abatement criteria and documented the benefits of Toledo’s
        abatement program. Recent results highlighted improved water quality when the
        post-abatement period was compared to the pre-abatement period.

        Since 1989, the Massachusetts Water Resources Authority has been implementing
        a water quality sampling plan required as part of a Federal court order for the
        Boston Harbor cleanup. Data were collected and analyzed for bacteria.


                                         28                           Report No. 2002-P-00012
CSO Projects Did Improve Water Quality
        While elimination of CSOs may not necessarily assure water quality standards are
        attained, there still is evidence investments in CSO remediation has resulted in
        declines in discharges and, at least in some cases, water quality has improved.

        Declines in Discharges

        Communities we visited generally measured changes in the number, volume, and
        duration of effluent being discharged by CSOs:

        •   Number: The number of discharge events for the Rouge River in Michigan
            was reduced by 80 percent.

        •   Volume: Port Huron, Michigan, at the completion of construction in 2002,
            will have reduced CSO volume from 226 to 114 million gallons per year
            (52 percent).

        •   Duration: A West Lafayette, Indiana sewer project eliminated one CSO
            point that resulted in 484 yearly hours of CSOs being reduced to 20 hours
            (96-percent reduction).

        Water Quality Improvements

        When data existed, improvements to water quality were noted after the
        implementation of CSO abatement programs. The following are several examples
        of the successes that have resulted in measurable water quality improvements.

        •   Michigan Department of Environmental Quality data demonstrated that three
            Oakland County and three Wayne County CSO retention basins eliminate raw
            sewage and protect public health. Also, the three Oakland County basins met
            the dissolved oxygen and physical characteristics water quality standards.

        •   In areas with remaining uncontrolled CSOs upstream on the Rouge River,
            data showed dramatic improvements in the river’s dissolved oxygen levels
            because of upstream CSO control projects and other watershed management
            changes. For example, on the Main Rouge River, the dissolved oxygen data
            for the water quality standards show that the dissolved oxygen levels
            improved from 40 percent below water quality standards in 1998 to 5 percent
            in 2000. Also, on the Lower Rouge River, the dissolved oxygen levels
            dropped from 70 percent below standards in 1994 to 4 percent in 2000.
        •   Water quality in the Swan Creek and Maumee River in Toledo, Ohio, had
            been upgraded. Minimum dissolved oxygen levels, maximum fecal coliform
            levels, and aesthetics had improved. Also, Toledo reported an increase of
            game fish in Swan Creek, and a 75-percent capture rate of CSOs in the city’s
            central business district.

                                        29                          Report No. 2002-P-00012
        •     The Massachusetts Water Resources Authority, in its October 6, 2000 report,
              Statistical Analysis of Combined Sewer Overflow Receiving Water Data,
              1989-1999, concluded that a significant and detectable decline in bacterial
              concentrations in Boston area receiving waters since 1991 had occurred.
              Specifically, all of the regions with data for the before and after improvement
              periods – including Dorchester Bay, the Neponset River, the Inner Harbor, the
              Mystic River, and the Charles River – showed significant reduction in the
              number of indicator organisms since 1991. The Inner Harbor, Mystic River,
              and Charles River showed a steady and significant decline in both fecal
              coliform and enteroccocci concentrations on a year-to-year basis. The report
              also noted that there tended to be a correlation between rainfall events and
              bacterial concentrations in the Boston Harbor area CSO receiving waters over
              the years of sampling.

        •     New Bedford, Massachusetts opened 5,000 acres of shellfish beds that had
              been closed for 30 to 40 years.

Conclusion
        We found that few CSO communities were collecting data on the effect that CSO
        controls were having on the water quality of their receiving waters. Most
        communities were monitoring the loadings as opposed to the water quality itself.
        Therefore, they generally used information on the number, volume, and duration
        of CSO events to determine the effectiveness of their actions. Data was not
        expected to be collected, in these cases, until the post-construction phase, which
        could be 10 to 15 years in the future. We believe it is important to do interim
        monitoring throughout the process to ensure CSO efforts were being effective and
        improving water quality.

Recommendation
        We recommend that the Assistant Administrator for Water:

            5.1   Work with CSO permitting authorities and communities to assure they
                  negotiate and establish the proper level of interim monitoring of CSO
                  efforts to determine the impact of the project on water quality.




                                          30                           Report No. 2002-P-00012
                              Chapter 6
                  CSO Efforts Need to Focus
                  More on Entire Watershed

        While CSO discharges are a significant pollution source for many water bodies,
        eliminating them will not always ensure that water quality standards will be met.
        Other major sources contributing to water body degradation can include sanitary
        sewer overflows, storm water, pollution from upstream sources (including
        nonpoint), and concentrated animal feeding operations. Therefore, while many
        communities spend large sums to alleviate their CSO problems, communities
        should focus on all problems for a watershed – not just CSOs – in order to
        effectively improve water quality. In most watersheds, the sources of water
        quality problems are too varied to be amenable to a single solution. Further,
        communities should also ensure that water quality standards in place are
        appropriate and attainable.

Many Factors Impact Water Quality
        For many communities, upstream or downstream pollution may overwhelm any
        pollution reductions they can achieve through CSO elimination efforts.
        Eliminating CSOs may achieve only a marginal improvement in water quality.
        While some communities may be able to eliminate all of their water quality
        problems by eliminating their CSOs, that is generally the exception rather than
        the rule. For most water bodies that currently fail to meet water quality standards,
        there are multiple causes.

        The Association of Metropolitan Sewerage Agencies, in its February 2002 report,
        supported this viewpoint. In a survey of its members, 78 percent of respondents
        indicated that water quality standards would not always be met during wet
        weather conditions after full implementation of the CSO long-term control plan.
        The report also suggested that, “parallel efforts to address other controlled and
        uncontrolled upstream sources must be greatly expanded.”

        The difficulty in achieving water quality standards by eliminating CSOs was also
        voiced by many of the communities we visited. Examples follow:

        •   A Massachusetts Water Resources Authority report, Beyond the Boston
            Harbor Project 1997-1998, The State of Boston Harbor, noted the results of
            computer modeling of fecal coliform bacteria levels in Boston Harbor and its
            tributary rivers after rainstorms. It stated: “Despite the highly controlled CSO
            discharges called for in MWRA’s (Massachusetts Water Resources
            Authority’s) CSO Plan, river water quality is still predicted to be poor after
            rainstorms because of storm water input.”
                                         31                           Report No. 2002-P-00012
        •   West Lafayette, Indiana officials indicated that they could do nothing to
            change the brownish color of their receiving waters, which is caused by
            pollution from nonpoint sources and concentrated animal feeding operations
            located upstream.

        •   Perrysburg, Ohio officials had not seen any visible change in the Maumee
            River since they implemented CSO controls. They said that the river was
            significantly impacted by agricultural runoff, and water quality objectives
            might be better achieved by regulating the agricultural industry. The EPA
            1998 Water Quality Inventory report listed agriculture as one of several
            leading sources of pollutants in four of our visited states (Ohio, Illinois,
            Indiana, and Michigan).

        •   Officials in Hartford and New Haven, Connecticut, as well as Haverhill,
            Massachusetts, pointed to pollution from communities upstream of their cities
            as hindering their ability to meet water quality standards.

        This interrelationship of pollution sources was not always something that
        community leaders were aware of. It was at times assumed that the expensive
        CSO control projects would alleviate water quality issues.

Watershed Approach Should Be Considered
        Because of the wide variety of pollution sources affecting urban waters and their
        impact on communities, we believe CSO control should be viewed in the context
        of watershed management. In particular, many of the receiving water measures
        and ecological, human health, and resource use measures quantify impacts or
        effects that are often governed by sources beyond CSOs. We believe, as do many
        in the CSO community, that attaining water quality standards and meeting
        designated uses can only be accomplished through a concerted effort to limit all
        sources of pollutants. However, this approach should not delay necessary CSO
        initiatives within the watershed context.

        The watershed approach is built on three main principles. First, the target
        watersheds should be those where pollution poses the greatest risk to human
        health, ecological resources, desirable use of the water, or a combination of these.
        Second, all parties with a stake in the watershed should participate in the analysis
        of problems and the creation of solutions. Third, the actions undertaken should
        draw upon the full range of methods and tools available, integrating them into a
        coordinated, multi-organization attack on the problems.

        Rouge River Project a Blueprint for Success

        The Rouge River National Wet Weather Demonstration in Michigan is an
        excellent example of how utilizing a watershed approach can help to achieve

                                         32                           Report No. 2002-P-00012
water quality goals more efficiently. We have previously described in this report
some of the successful results that have been achieved by this project.

Recognizing the major costs involved in controlling CSOs and that other sources
of pollution impacted water quality, Congress appropriated money in 1992 to
establish the Rouge River Project. The total funds earmarked by Congress for the
Project has reached $346.8 million. The Rouge River watershed is largely
urbanized, spans approximately 438 square miles, and is home to over 1.5 million
people in 48 communities and three counties, including Detroit.

Rouge River Project officials stated that water quality has to be dealt with on a
macro level. Solutions can be better derived from a holistic watershed
perspective. Communities should not work separately, and are more productive if
they work together. In this way, consideration is given to the inter-relationship
between the impacts from all sources of pollution and use impairments in a
receiving water. Project officials also stated that the watershed approach was cost
beneficial for participating communities and ultimately resulted in greater and
faster achievement of designated uses in a water body. Further, Project officials
stated that progress on the project had shown that use of a watershed approach did
not mean delay, and action could be taken on CSO controls and other abatement
initiatives within the context of a watershed approach.

While we applaud the many successes that have been achieved through the Rouge
River Project, we recognize that there were some advantageous factors that
increased the possibility of success. First, Congress provided massive direct
funding to assist communities in the construction of the expensive CSO projects.
Second, the entire project was located within one state’s jurisdiction. Many other
watershed opportunities may involve multi-state issues, which can make
coordination and management more difficult.

Others Recognize Need for Watershed Approach

Other CSO communities and interested parties have recognized the need for a
watershed approach to address water quality issues. For example, communities in
the three EPA Regions we reviewed (Regions 1, 3, and 5) have begun to work
collectively to address common problems.

•   Massachusetts and New Hampshire communities along the Merrimack River
    have joined together to form the Merrimack CSO Coalition. The participating
    communities believed it was in their best interest to form a coalition to
    address the impact of CSOs and other pollutants on the river. They further
    believed that a coalition would strengthen their collective ability to influence
    regulatory agencies toward a more creative, comprehensive and effective
    approach to improving the affected waters.

•   In Pennsylvania, the 3 Rivers Wet Weather Demonstration Program divided
    the Allegheny County Sanitary Authority’s 83 communities into 8 planning
                                 33                           Report No. 2002-P-00012
    basins that share sewersheds. In early 2001, three basin groups had been
    formed. The basin groups consisted of elected and appointed officials from
    each community in the basin. Each group’s purpose was to plan and
    implement collaborative projects that will benefit municipalities by combining
    financial and technical resources while proactively working to comply with
    the Clean Water Act. The Chartiers Basin Group Chair, who was from a town
    of about 7,000 people, stated that this combined approach was important
    because a community of his size could not address these issues alone.

•   Several municipalities on the Maumee River in Indiana and Ohio recently
    formed the Maumee River Basin Partnership of Local Governments to address
    watershed issues (see map). The Partnership, announced in March 2001, has
    begun to provide a collective resource and forum where city, town, and
    county officials can share vital water quality information and enhance their
    regional communication efforts. For example, in June 2001, the Partnership
    formed a Regulatory Issues Working Group whose focus includes Federal
    CSO funding issues, total maximum daily loads, NPDES permitting, and
    concentrated animal feeding operations.

The Association of Metropolitan Sewerage Agencies, in a February 2002 report,




                                34                          Report No. 2002-P-00012
        The National Response to Combined Sewer Overflows, stated that it had long
        sought the ability to address wet weather pollution problems in accordance with
        watershed management principles. The organization believed that a
        comprehensive approach would result in a systematic, incremental, and more
        cost-effective achievement of water quality objectives.

        EPA Favors Watershed Approach

        All of this supports EPA’s long-held position on the subject. EPA has been in
        favor of watershed approaches for over a decade. In 1991, the Office of Water
        issued the Watershed Protection Approach Framework. In June 1996, EPA
        explained its vision of watershed approaches and built on the 1991 document with
        the Watershed Approach Framework. In the cover letter to that document, the
        EPA Administrator stated, “We believe the watershed approach can significantly
        improve water resource restoration, protection and maintenance and achieve
        lasting environmental results.”

        Further, in its December 2001 report to Congress, EPA indicated that the
        attainment of water quality standards could not often be achieved solely through
        CSO controls because of other point and nonpoint sources. The report stated that
        the integration of long-term control plan development in a watershed context
        would alleviate some concerns about meeting water quality standards and equity.

        Even though EPA advocates a watershed approach, it still administers its water
        programs categorically. A recent draft EPA review of state programs pointed out
        that, “States identified a number of barriers posed by EPA and federal authorities
        to implementing... watershed management” including “fragmented and output-
        oriented” oversight of state programs.

        Recently, EPA began focusing on the goal of integrating the NPDES program
        further into the concept of watershed planning. EPA is exploring models for a
        watershed permitting program that would allow for local leadership in conducting
        watershed planning and selecting appropriate management options to meet
        watershed goals and Clean Water Act requirements.

Appropriate and Attainable Water Quality Standards Needed
        According to EPA staff, one of the “major” issues causing CSO implementation
        to lag was the lack of water quality standards reviews during the CSO planning
        process. One key principle, which ensures that CSO controls are cost-effective
        and meet the objective of the Clean Water Act, is the “review and revision as
        appropriate, of water quality standards and their implementation procedures when
        developing CSO control plans to reflect the site-specific wet weather impacts of
        CSOs.” On July 31, 2001, EPA issued Guidance: Coordinating CSO Long-Term
        Planning with Water Quality Standards Reviews, because “in the 7 years since
        EPA issued the CSO Control Policy, implementation of this principle has not

                                        35                           Report No. 2002-P-00012
progressed as quickly as expected.” This lack of progress was due in part to a
reluctance by regulatory agencies, environmental groups, public officials, and the
public to accept what is perceived as the downgrading of water quality standards.
The review process can be so intensive as to become burdensome.

Nationwide, only the Massachusetts Water Resources Authority obtained a
variance from water quality standards for CSOs. A variance is a discharge-
specific, short-term modification to the applicable water quality standard,
typically of 3- to 5-year duration. When a state adopts the variance, it must have
sufficient data to determine that the designated use is not attainable within the
duration of the variance.

It is up to the states to propose a revision to water quality standards. They make
this proposal by submitting a use attainability analysis to the public and EPA.
A use attainability analysis is a structured scientific assessment of the physical,
chemical, biological, and economic factors affecting the attainment of the use for
a water body. The detailed water quality, financial, and technical information
needed for the use attainability analysis can be required as part of the scope of a
community’s long-term control plan. The study costs are part of the CSO
planning process, which can range from a few hundred thousand dollars to
millions. Public participation should be a part of the process. If appropriate, the
state submits to EPA a proposal to change water quality standards.

While the use attainability analysis process is the means for revising a water
body’s designated use, it is usually a contentious process. For example, the
Massachusetts Department of Environmental Protection’s CSO Coordinator
described the use attainability analysis process as “onerous,” noting, “lowering a
water quality standard is rarely warmly received either by the regulatory agencies
or with watershed advocacy groups or politicians. The process can be contentious
at times, with lengthy debate over costs, CSO controls, receiving water goals and
conditions.”

Generally, the CSO Partnership officials stated that more realistic water quality
standards need to be developed. The CSO Partnership believed that some states’
definition of fishable and swimmable waters was a barrier because not all streams
are fishable or swimmable 365 days a year due to wet weather conditions (people
should not expect to swim in waters after a rain storm). EPA’s December 2001
report to Congress also noted this concern that most states use
fishable/swimmable as their default-designated use.

In commenting on EPA’s draft guidance on reviewing water quality standards
with long-term control plan development, the CSO Partnership wrote, “The States
need a strong and clear commitment from EPA that EPA will support their efforts
and will provide the political support (based upon scientific realities) necessary to
allow refinements in designated uses and water quality standards for urban CSO
receiving waters.” In the opinion of the CSO Partnership’s counsel, EPA’s final

                                 36                           Report No. 2002-P-00012
        guidance was too intimidating for many communities and EPA needed to show,
        through demonstration projects, how to implement the guidance.

        EPA’s Office of Science and Technology held a national symposium in June 2002
        to hear stakeholder views on designated use. At its conclusion, EPA decided it
        will develop guidance for recreational use, with subsequent guides on other uses.

Conclusion
        It needs to be recognized that eliminating CSOs by themselves may not
        necessarily assure the attainment of water quality standards. Receiving waters
        can still be degraded by other sources, including pollution from various point and
        nonpoint sources such as sanitary sewer overflows, storm water, and concentrated
        animal feeding operations. To address the broad variety of pollution sources that
        affect water bodies, EPA has been encouraging a watershed approach. We found
        examples where the watershed approach has been successful when dealing with
        CSO issues, and believe its use should be expanded.

        Also, CSO communities were not taking advantage of the flexibility that the CSO
        Policy afforded them in undertaking water quality standards reviews during the
        CSO planning process. This lack of progress was due in part to a reluctance by
        regulatory agencies, environmental groups, public officials, and the public to
        accept what is perceived as the downgrading of water quality standards. In
        addition, the review process can be so intensive as to become burdensome.

Recommendations
        We recommend that the Assistant Administrator for Water:

         6.1    Provide a leadership role by working with states and communities to
                develop watershed approaches that will target priority activities and will
                ensure that water quality standards are met.

         6.2    Provide a leadership role by encouraging states and communities to work
                with other stakeholders to develop appropriate water quality standards
                and, when appropriate, revise those standards.

        6.3    Encourage states to adopt water quality standards recognizing seasonal
               recreational uses.




                                         37                           Report No. 2002-P-00012
38   Report No. 2002-P-00012
                                   Exhibit 1
                   Nine Minimum Controls and
                    Long-Term Control Plans
Nine Minimum Controls

           As noted in the EPA’s May 31, 1995, “Guidance For Nine Minimum Controls,”
           there are controls that can reduce CSOs and their effects on water quality. They
           do not require major engineering studies and usually can be implemented in less
           than 2 years. The nine minimum controls are as follows:

           •   Proper operations and regular maintenance programs for the sewer system and
               CSO outfalls.
           •   Maximum use of the collection system for storage.
           •   Review and modification of pretreatment requirements to ensure that CSO
               impact are minimized.
           •   Maximization of flow to the publically-owned treatment works for treatment.
           •   Elimination of CSOs during dry weather.
           •   Control of solid and floatable materials in CSOs.
           •   Pollution prevention programs to reduce contaminants in CSOs.
           •   Public notification to ensure that the public receives adequate notification of
               CSO occurrences and CSO impacts.
           •   Monitoring to effectively characterize CSO impacts and the efficacy of CSO
               controls.

           These controls are not temporary measures: they should be a part of the CSO’s
           long-term controls. Selection and implementation of actual control measures
           should be based on site-specific considerations, including the specific
           characteristics identified in the characterization and monitoring of the combined
           sewer system.

Long-Term Control Plans

           According to the CSO Policy, CSO permittees are responsible for developing and
           implementing long-term control plans that will ulitimately result in compliance
           with Clean Water Act requirements. The plans should consider the site-specific
           nature of CSOs and evaluate the cost effectiveness of a range of control options.
           The selected controls should be designed to allow for retrofitting or expansion if
           additional controls become necessary to meet water quality standards, including

                                            39                           Report No. 2002-P-00012
existing and designated uses. A permittee can use one of two approaches to
demonstrate that its selected CSO controls will achieve water quality standards.
These are the “presumption” and “demonstration” approaches.

Using the “presumption” approach, the permittee provides a specific level of
control that is presumed to meet water quality standards. The selection of this
approach does not release a permittee from the overall requirement of meeting
water quality standards. If the permitting authority determined that the plan will
not result in meeting Clean Water Act requirements, then the presumption will not
apply. Under the “presumption” approach, controls adopted in the plan should be
required to meet one of the following criteria:

•   No more than an average of four overflow events per year, provided that the
    permitting authority may allow up to two additional overflow events per year;
•   The elimination or the capture for treatment of no less than 85 percent by
    volume of the combined sewerage collected in the combined sewer system
    during precipitation events on a system-wide annual average basis; or
•   The elimination of the pollutants or removal of no less that the mass of the
    pollutants identified as causing water quality impairment through the sewer
    system characterization, monitoring, and modeling effort for the volumes that
    would be captured for treatment above.

In the “demonstration” approach, the permittee provides information and data
that show the selected controls meet the water quality standards and designated
uses. In selecting the “demonstration” approach, a community would have
several options for developing a long-term control plan. The CSO Policy
identifies four criteria for successful use of the “demonstration” approach:

•   The CSO control program will protect water quality standards unless the
    standard cannot be met as a result of natural conditions or other pollution
    sources;
•   The overflows remaining after implementation of the control program will not
    prevent attainment of water quality standards;
•   The planned control program will achieve the maximum pollution reduction
    benefits reasonably attainable; and
•   The planned control program designed to allow cost effective expansion or
    cost effective retrofitting if additional controls are subsequently determined to
    be necessary to meet water quality standards, including protection of
    designated uses.




                                 40                           Report No. 2002-P-00012
                                  Exhibit 2
                           Review Participants

EPA

      Office of Wastewater Management (Office of Water)
      Great Lakes National Program Office
      Region 1
      Region 3
      Region 5


By State
      Connecticut
        Connecticut Department of Environmental Protection
        City of Bridgeport
        City of Hartford
        City of New Haven

      Illinois
        Illinois Environmental Protection Agency
        Metropolitan Water Reclamation District of Greater Chicago

      Indiana
        Indiana Department of Environmental Management
        Town of Brownsburg
        Columbia City
        City of Fort Wayne
        City of Frankfort
        City of West Lafayette

      Massachusetts
        Massachusetts Department of Environmental Protection
        Massachusetts Water Resources Authority
        City of Haverhill
        City of New Bedford

      Michigan
        Michigan Department of Environmental Quality
        City of Dearborn
        City of Dearborn Heights
                                           41                        Report No. 2002-P-00012
       City of Detroit
       Garden City
       City of Lansing
       City of Livonia
       Oakland County
       City of Port Huron
       Wayne County
       United States District Court Monitor

     Ohio
       Ohio Environmental Protection Agency
       City of Akron
       Metropolitan Sewer District of Cincinnati
       City of Columbus
       City of Defiance
       City of Lancaster
       City of Lima
       City of Newark
       Northeast Ohio Regional Sewer District
       Village of Paulding
       City of Perrysburg
       City of Port Clinton
       City of Toledo

     Pennsylvania
       Pennsylvania Department of Environmental Protection
       Allegheny County Sanitary Authority
       Town of Crafton
       City of Pittsburgh
       Ross Township
       3 Rivers Demonstration Program

     Vermont
       Vermont Department of Environmental Conservation
       City of Rutland
       City of Springfield


Organizations

     Association of Metropolitan Sewage Agencies
     CSO Partnership




                                              42             Report No. 2002-P-00012
 Appendix 1
Agency Response




      43          Report No. 2002-P-00012
44   Report No. 2002-P-00012
45   Report No. 2002-P-00012
46   Report No. 2002-P-00012
47   Report No. 2002-P-00012
48   Report No. 2002-P-00012
49   Report No. 2002-P-00012
50   Report No. 2002-P-00012
51   Report No. 2002-P-00012
                                Appendix 2
                                   Distribution

Office of Inspector General

Inspector General (2410)

Headquarters

Assistant Administrator for Water (4101)
Comptroller (2731A)
Agency Audit Followup Coordinator (2724A)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Director, Office of Regional Operations (1108A)
Associate Administrator for Communications, Education and Media Relations (1101A)
Director, Office of Wastewater Management (4201)
Director, Permits Division (4203)

Regions

Regional Administrators




                                           52                         Report No. 2002-P-00012
